IN THE SUPREME COURT OF THE UNITED STATES

GRAHAM SONNENBERG,
Petitioner

r'

r n

v.
1

LORI DAVIS,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO

FILED
JAN 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

THE FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Graham Sonnenberg
Petitioner prose
TDCJ-CID# 1950692
Jester 3 Unit
3 Jester Road
Richmond, Texas 77406-8544

QUESTION PRESENTED
Petitioner alleged that his trial counsel was ineffective for failing to
advance a plausible alternative defense that would have exonerated petitioner.
Petitioner was convicted, mainly, upon the testimony of Alexis Manley and
Barbara Kucharska.

Multiple witnesses were available to testify at trial that

would have assisted in establishing an alternative defense theory.

Brady

material was noticed to counsel on March 17, 2014, months in advance of trial.
The Brady evidence would have corroborated witness testimony that the injuries
claimed by Manley and Kucharska, were not the result of an assault by the
petitioner.

The Court of Appeals agreed that the omitted Brady page, that

trial counsel claimed as the reason for not investigating Brady material, was
not material, but only provided more detail of the same.

Petitioner retained

counsel for $20,000.00 and paid $7,500.00 for counsel's services, four months
after the Court appoints him due to indigence.

Then, trial counsel tells the

petitioner, "If you don't pay me my [*]ucking MONEY, GRAHAM, YOU'RE GOING TO
PRISON 1 CAN PROMISE YOU THAT, PAY ME!!" Counsel labors under an actual
conflict of interest between counsel's personal interest of money over peti­
tioner's interest of proving innocence.

Petitioner presented evidence of the

"adverse affect" as trial transcripts showing trial counsel passing on Brady
material, and witnesses vital to the defense.
apply Cuyler, but fail to apply adverse affect.

The state and District Courts
The case thus presents the

following question:
Whether the prophylaxis of Cuyler should be extended to define the term
"adverse affect" to establish a demonstration test involving actual conflicts
between an Attorney's personal interest and his Client's interest.

i.

LIST OF PARTIES
The following are parties that have an interest in the outcome of this
case:

Petitioner:

Graham Sonnenberg
TDCJ-CID #1950692
Jester 3 Unit
3 Jester Road
Richmond, Texas 77406-8544

Respondent:

Lori Davis
Former Director for TDCJ-CID
1060 Hwy. 190 East
Huntsville, Texas 77340

Respondent:

Bobby Lumpkin
Director TDCJ-CID
1060 Hwy. 190 East
Huntsville, Texas 77340
Mr. Lumpkin became Director during the
pendency of litigation.

Respondent's Counsel:

Nathan Tandema
Assistant Attorney General of Texas
P.0. Box 12548, Capitol Station
Austin, Texas 78711-2548

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

21

CERTIFICATE OF SERVICE

24
INDEX TO APPENDICES

APPENDIX A-Fifth Circuit Court of Appeals Opinion issued June 15, 2020
APPENDIX B-Denial of Rehearing Fifth Circuit issued on October 01, 2020
APPENDIX C-State's Exhibits showing petitioner's injuries
APPENDIX D-Affidavit of witness Sheana Lincoln
APPENDIX E-Affidavit of witness Chase Lincoln
APPENDIX F-Affidavit of petitioner
APPENDIX G-Photographs of Manley from a previous auto accident 55 and 63
APPENDIX H-Affidavit of Holly Moffitt
APPENDIX I-Brady Evidence of Alexis Manley proving petitioner did not cause
injury to her arm as claimed
APPENDIX J- Order Appointing Attorney on October 16, 2013
APPENDIX K- Affidavit of Vickie A. Lincoln
APPENDIX L-Affidavit of Dawn Grunwaldt
APPENDIX M-Affidavit of Chase Lincoln
APPENDIX N-Affidavit of William Lincoln

iii

TABLE OF AUTHORITIES
Case

Page(s)

Beets v. Collins,
65 F.3d 1258 (5th Cir. 1995)

20

Burger v. Kemp,
483 U.S. 776, 107 S. Ct. 3114 (1987)

16

Crawford v. Washington,
541 U.S. 36, 124 S. Ct. 1354 (2004)

17,18,20,22

Cuyler v. Sullivan,
446 U.S. 355, 100 S. Ct. 1708 (1980)

15,16,17,19,20,21,23

Freund v. Butterworth,
165 F.3d 839 (11th Cir. 1999)

19,20

Hollowway v. Arkansas,
435 U.S. 475, 98 S. Ct. 1173 (1978)

16

Mc-Mann v. Richardson,
397 U.S. 759 (1970)

15

Mickens v. Taylor,
535 U.S. 162, 122 S. Ct. 1237 (2002)

16,19

Nix v. Whiteside,
485 U.S. 157, 106 S. Ct. 988 (1986)

16

Padilla v. Ky.,
559 U.S. 356 (2010)

15

Sonnenberg v. Davis,
No. l:18-CV-450 (W.D. Tex. 2018)

6

iv

Page(s)

Case
Sonnenberg v. State,
No. 03-14-00530 CR, 2016 WL 3475200 (Tex.App.-Austin 2016)

6

Thomas v. Foltz,
818 F.2d 476 (6th Cir. 1987)

16,17

United States v. Fohey,
769 F.2d 829 (1st Cir. 1985)

19

United States v. Gambino,
864 F.2d 1064 (3d Cir. 1988)

19,20

Winkler v. Keane,
7 F.3d 304 (2d Cir. 1993)

19,20

Wood v. Georgia,
450 U.S. 261, 101 S. Ct. 1097 (1981)

16

UNITED STATES CONSTITUTION
U.S. CONST., AMEND. VI

2

U.S. CONST., AMEND. XIV

2
UNITED STATES CODE
1,3,4,5,17

28 U.S.C. §2254.

18

28 U.S.C. §2254(d)(l)

v.

PETITION FOR WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS
The Petitioner, Graham Sonnenberg, respectfully prays that a Writ of
Certiorari issue to review the judgment and opinion of the Fifth Circuit Court
of Appeals, rendered in these proceedings on June 15, 2020.

OPINION BELOW
The Fifth Circuit Court of Appeals denied the petitioner habeas relief
under 28 U.S.C. §2254 in its cause no. 19-50105.

The opinion is unpublished,

and is reprinted in the appendix to this petition A, infra.

The order of the

Fifth Circuit Court of Appeals denying rehearing is reprinted in the appendix
to this petition as B, infra.
JURISDICTION
The original opinion of the Fifth Circuit Court of Appeals was entered
June 15, 2020.

A timely motion to that Court for rehearing that was denied on

October 01, 2020.

Due to COVID-19, under the current 150 day rule, this

petition is presented timely.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254.

1.

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in this

case.
U.S. CONST., AMEND VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel
for his defence.
U.S. CONST., AMEND XIV
Section 1.

All persons bom or naturalized in the United States, and

subject to the jurisdiction thereof, are citizens of the United States and of
the State wherein they reside.

No State shall make or enforce any law which

shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

2.

28 U.S.C. §2254
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in behalf of
a person in custody pursuant to the judgment of a State court only on the ground
that he is in custody in violation of the Constitution or laws or treaties of
the United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted unless
it appears that—
(A) the applicant has exhausted the remedies available in the courts of
the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect
the rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available
in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or
be estopped from reliance upon the requirement unless the State, through
counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available
in the courts of the Statem within the meaning of this section, if he has the
right under the law of the State to raise, by any available procedure, the
question presented.

3.

(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
(e)(1) In a proceeding instituted by an application for a writ of habeas corpus
by a person in custody pursuant to the judgment of a State court, a determination
of a factual issue made by a State court shall be presumed correct,

The

applicant shall have the burden of rebutting the presumption of correctness by
clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim
in State court proceedings, the court shall not hold an evidentiary hearing on
the claim unless the applicant shows

that—

(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously
unavailable; or
(ii) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and

4.

(B) the facts underlying the claim would be sufficient to establish by
clear and convincing evidence that but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the
underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such
State court proceeding to support the State court's determination of a factual
issue made therein, the applicant, if able, shall produce the part of the
record pertinent to a determination of the sufficiency of the evidence to
support such determination.

If the applicant, because of indigency or other

reason is unable to produce such part of the record, then the State shall
produce such part of the record and the Federal court shall direct the State
to do so by order directed to an appropriate State official.

If the State

cannot provide such pertinent part of the record, then the court shall
determine under the existing facts and circumstances what weight shall be
given to the State court's factual determination.
(g) A copy of the official records of the State court, duly certified by the
clerk of such court to be a true and correct copy of a finding, judicial
opinion, or other reliable written indicia showing such a factual determination
by the State court shall be admissible in the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substance Act, in all
proceedings brought under this section, and any subsequent proceedings on
review, the court may appoint counsel under this section shall be govered by
section 3006A of title 18.

5.

STATEMENT OF THE CASE
Petitioner was convicted of aggravated assault bodily injury with a deadly
weapon and assault strangulation.

According to Alexis Manley, the alleged

victim, testfied that, after she had dated petitioner for several months,
petitioner came to her house and committed various acts of violence against
her.

The jury deliberated for four hours finding petitioner guilty.' See

Sonnenberg v. State, No. 03-14-00530 CR, 2016 WL 3475200 (Tex.App.-Austin 2016,
no pet.).
Petitioner appealed, asserting:

a double-jeopardy claim; the improper

admission of expert testimony; trial error with regard to the denial of
petitioner's request to poll the jury; and typographical error in the judgment.
Sonnenberg, 2016 WL 3475200, at *1.

The appellate court modified the judgment

to cite the proper subsection of the Penal Code under which petitioner was
convicted and overruled petitioner's other claims for relief.

Id. at *5.

Petitioner did not seek discretionary review of the appellate Court's decision.
Petitioner filed a state writ of habeas corpus, asserting:

Petitioner was

denied the effective assistance of counsel; a double-jeopardy claim; and a
Brady claim.
the writ.

The habeas trial court, which was not the convicting court, denied

The Court of Criminal Appeals denied the writ without written order.

Petitioner timely filed his habeas petition under 28 U.S.C. §2254 in
Sonnenberg v. Davis, cause no. l:18-CV-450 for the Western District of Texas
Austin Division.

Petitioner was denied habeas relief, as well as a requested

evidentiary hearing.

Petitioner timely filed his request for Certificate of

Appealability, denied on June 15, 2020, (APPENDIX A) in its cause 19-50105.
Rehearing En Banc is timely filed, denied on October 01, 2020, (APPENDIX B).

6.

At petitioner's trial, Alexis Manley testified that, after she had dated
petitioner for several months, petitioner came to her house one night and
committed various violent acts, including strangling her with the hands, and
standing on her throat while wearing boots.

Manley testified that petitioner

kicked her in various parts of her body, tore some of her hair out, threw her
jewelry at her, slapped her, puched her, bit her, and broke her arm.

Manley

admits hitting petitioner during the encounter, and testified that petitioner
banged his own head against a doorframe.
Petitioner admitted to assaulting Manley in self-defense, after Manley
slapped, punched, pushed, and bit petitioner on the face causing bleeding.
See APPENDIX C.

Petitioner leaves Manley's apartment, calls a Yellow Cab after

calling friend Jay Plower, where petitioner went to a club called Polazio's.
Jason, the club's owner, gives petitioner a first aid kit to clean off the
blood from petitioner's face, as well as scratches from Manley's violent attack.
Petitioner remained at Polazio's until about 2:40 a.m. waiting for Jay Plower,
who never shows up.

Manley texted petitioner begging him to come back.

Then,

petitioner did so.
Once petitioner arrived at Manley's house, upon entering, petitioner is
assulted wityh a ceramic gnome causing bleeding.

Manley then takes a knife,

cuts petitioner's ear (APPENDIX C), where a wrestling match ensues, to free
Manley of the knife.

Manley then takes off running out the door.

Shortly

thereafter, the police show up detaining petitioner.
At the hospital, a female doctor and nurse sees petitioner due to his
injuries.

Little pieces of gnome were removed from petitioner's head where

seven (7) stitches were applied.

Stitches were also applied to petitioner's

face, ear, petitioner's elbow is also shattered.
7.

Manley recited a fictitious story to police and medical personnel to hide
the fact, that Manley was out on bond for a second degree DWI charge, as Manley
was intoxicated with multiple drugs in her system, including Cocaine.

At the

hospital, petitioner informs medical personnel and the police of these facts.
In December of 2012, at the Moontower, a bar in south Austin, petitioner
met Barbara Kucharska also known as "Bashka" while petitioner's catering
company had an engagement there.
much to drink.

Bashka needed a ride home as she had too

In January of 2013, petitioner moved in with Bashka with

petitioner's son Sam.

Bashka conceived a plan that petitioner and her should

have children together, which petitioner objected to.

Shortly thereafter,

petitioner moved out of Bashka's home by the end of March.

Bashka refused

to give petitioner, and his son, their belongings amounting to over $7,000
worth of items leaving petitioner and his son with nothing.

Over the next

few months, Bashka insisted her and petitioner should be married and have
children together.

She used this situation to continue to hold belongings

of petitioner and petitioner's son, which continued to escalate into a bad
situation.
Kucharska (Bashka) claimed at trial that while petitioner was with her
in San Antonio, petitioner assaulted her, and damaged a hotel room doing $5,000
in damage.
allegation.

At trial, no documents were provided by the hotel to prove this
Bashka also lied concerning petitioner's whereabouts, since

petitioner was in Austin at a barbque with friends Tye and Dawn during the
Memorial Day weekend on June 22, 2013.

Witnesses Chase and Sheana Lincoln

observed Bashka's injuries and how she obtained then while tubbing.
APPENDIX D.

See

The affidavit is quite clear how Bashka's injuries occured.

The District Attorney never returned calls from Austin and Sheana, nor did

8.

Chase Lincoln get to recite the actual events of Bashka's injuries.
E of Chase Lincoln.

See APPENDIX

The jury never heard the truth, or the true circumstances,

just a story of fiction by the State's witnesses Manley and Bashka, violating
the Sixth Amendment's effective counsel provision, and the Fourteenth Amendment's
confrontation clause.
In addition, petitioner learned that Bashka befriended Manley.

Text

messages existed to support the conclusion, that Manley and Bashka conspired
to commit perjury in court to, "get me" if petitioner did not surrender to
Bashka's demands of getting back together with her.

Petitioner submitted an

affidavit;';(APPENDIX F) of these facts in support of petitioner's habeas corpus
that the court claimed was not credible.

Equally important, all the above

facts could have easily been proven had trial counsel completed his duty to
advance an alternative defense to the allegations as both evidence and witnesses
existed to corroborate petitioner's defense.
Petitioner's witnesses were at trial ready to testify in order to present
his defense under the crucible of confrontation.

Trial counsel never asks a

single defense witness to testify.
A simple inquiry by the State or District Court's during any of the habeas
proceeding, would have revealed that trial counsel lied in his affidavit. All
of petitioner's witnesses were in the courtroom ready to testify,

Exhibit 8

in the habeas record (APPENDIX D in this petition), is an affidavit of Sheana
Lincoln, that reveals that Bashka's injuries occured while tubbing at Don's
Fish Camp.

The affidavit also reveals trial counsel never returned her calls

as trial counsel so claimed in his affidavit, "We left a clear message with
his office stating we would like to testify in regards to the date of June
22, 2013. " The trial court disregarded this affidavit calling it not credible.
9.

Witness Ryan Nail, would have testified that Manley was at Nail's house
with petitioner on the day of the alleged assault.

Also, that Manley had

been drinking, and that Manley's behavior was rude and assaultive.

At trial,

Manley denied ever being at Nail's home (R.R. Vol. 5 at 59).
Witness Angela Bradley, would have testified that a few days after the
incident with petitioner, that Manley told her she obtained her injuries by
falling down the stairs.

Bradley also would have testified to Manley's

character as being dishonest and untrustworthy.

Trial counsel refused to

call Bradley as a witness, even though counsel claimed he contacted Bradley.
Witness Terrez Townley would have testified that he had witnessed Manley
assault petitioner on previous occasions.

Townley also, would have testified

that Manley was a dishonest person andchad openly verbally abused petitioner.
Witness Jay Plower, would have testified that petitioner contacted him
after being assaulted by Manley, and that Manley was dishonest and untrustworthy.
Plower would have also testified, that Manley verbally abused petitioner,
and even threatend petitioner with physical harm.
Witness John Splendorio, would have testified that Manley was a violent
person, not credible, nor reliable.

Splendorio also would have testified

that Manley assaulted him on multiple occasions.
Even though petitioner demanded that all of the above witnesses be at
trial to testify, to prove that petitioner did have an alternative defense to
Manley's and Kueharska's allegations, trial counsel failed, and refused, to
secure these witnesses.
the circumstances.

The jury never heard the truth, or the true nature of

Under the rubic of reasonable doubt, there can be no way to

determine the impact such testimony would have had on the jury.

10.

Trial counsel

allowed an uncontested State presentation of evidence against petitioner.

In

Court, witness Dawn Grunwaldt submitted an affidavit of how counsel was not
prepard for trial (APPENDIX L), allowing no witnesses to testify.

Had witnesses

been allowed to testify, the probability exists, the outcome would be different.
Trial counsel claimed in his affidavit, that petitioner's witnesses,
"would not be terribly useful" and "might even be harmful." The State habeas
court was allowed by the Federal District Court to pass on the self-defense
issue.

The State habeas court never inquired concerning trial counsel's lack

of explanation in his affidavit, of why he failed to present an alternative
defense, even though the substance of witness testimony, would have been useful
to establish a defense to the allegations.

Trial counsel's so-called trial

strategy to forego witnesses, violated the confrontation clause, as the trial
itself was highly unreliable (APPENDIX L NOTED).

Prejudice was injected during

the trial that influenced the jury.
State documentary evidence of photographs (APPENDIX G) exhibits 55 and
63 were downloaded from a previous auto accident.

The State used these photos

to convince the jury petitioner caused Manley's injuries on October 29, 2012.
The State left these photographs on the projector for extended periods of
time witnesses by Holly Moffitt (APPENDIXyH).
Appendicies M and N are affidavits from petitioner's brothers Chase
Lincoln and William Lincoln, who were never contacted by counsel to get their
statement, or asked to testify at trial.
Documentary evidence existed to verify witness accounts on Manley's
drunken, drugged state; a toxicology report that would have proven Manley
lied to police, the jury, and falsified reports in order to convict petitioner.
No confrontation from trial counsel existed at any part of the trial.
11.

Several months prior to petitioner's trial, the State filed a "Notice
of Disclosure of Brady Material" stating:

"In the medical records from Texas

Orthopedics, [Alexis Manley] told medical staff on November 07, 2012, that
she sustained the injury to her left forearm by falling down some stairs."
See APPENDIX I.

At petitioner's trial, trial counsel claims he never received

the Brady material until the day of trial.

A fact omitted by the District

Court, and the Fifth Circuit, is that the trial court gave trial counsel every
opportunity to take a recess to consider his course of action.
declined (R.R. Vol. 5 p. 213-214).

Trial counsel

Under the Brady Notice on April 10, 2014,

medical staff from Austin Regional Clinic was told by Barbara Kucharska, that
she had injured her collarbone because she tripped over her high heels and
"fell directly forward ontoiher collarbone." Barbara Kucharska's admission,
in addition to the Lincoln's testimonies (APPENDICIES D and E), exonerates
petitioner by reasonable doubt of the alleged assaults on Manley and Kucharska.
This additional documentary evidence corroborated eyewitness accounts.
The Court of Appeals in their opinion agreed that trial counsel had Brady
Notice months before trial; that the omitted page was not material as to why
counsel never investigated the Brady material:

"... only provided more detail

to this differing account." See Court of Appeals Opinion page 9 paragraph 1
(unable to obtain).

To emphasize, the missing page was not in any way

material of why trial counsel never investigated, nor introduced the Brady
material to the jury.

The Brady material was a crucial evidence, because it

places reasonable doubt before the jury with the witnesses testimony.
Actual Conflict of Interest
The main reason why trial counsel failed to advocate petitioner's case is
over money.

Trial counsel labored under an actual conflict of interest over
12.

funds that petitioner owed him as retained counsel.

When petitioner became

indigent, the court-appointed the same trial counsel to petitioner.

On October

16, 2013, the court enters it order appointing JON EVANS as petitioner's
counsel.

See APPENDIX J.

Exhibit 2 in the habeas record explains how the

actual conflict developed.
Petitioner agreed to a $20,000.00 retainer to defend petitioner as
business was good at the time,
the agreed retainer.

Petitioner believed he could pay trial counsel

After several threats from trial counsel, Vickie Lincoln

on February 12, 2014, after being appointed by the Court, pays trial counsel
$7,500.00.

APPENDIX K is Vickie Lincoln's Affidavit with the receipt from

trial counsel's office for the paid legal services receipt number 730136,
submitted during the habeas proceeding as Exhibit 3.

Trial counsel's interest

in petitioner's case was money, not advocating petitioner's innocence, which
explains why trial counsel never proceeded to present a defense as any lawyer
would.
In addition, APPENDIX K reveals the tension between trial counsel and
petitioner, as these accounts were revealed to petitioner's mother Vickie
Lincoln.

The hostile manner in which trial counsel treated petitioner is well

noted in APPENDIX K.

Since petitioner could no longer pay trial counsel what

he demanded, trial counsel refused to investigate the case.

Trial counsel"tells

petitioner, "If you don't pay me my FUCKING MONEY GRAHAM YOU'RE GOING TO
PRISON I CAN PROMISE YOU THAT, PAY ME!!" Petitioner broke down in tears ::
telling trial counsel he is indigent.

Petitioner never sees trial counsel

again.

13.

Petitioner informs Judge Corronado of the incident via a letter to the
Judge, whoIrefused to assign new counsel regardless of the conflict over
money, even though counsel is appointed.

Exhibit 2 in the habeas record shows

the trial court was well aware of the conflict.
Due to trial counsel's "All or nothing" representation, where counsel's
interest in money becomes more important than pursuing viable evidence to
provide an alternative defense, is evidence that trial counsel's performance
was being adversely affected.

Once adverse affect is demonstrated, under

Supreme Court law, an evidentiary hearing must be conducted to inquire into
counsel's performance, to test the adverse affect prong as required.

The

Fifth Circuit commits reversable error, by failing to hold a De Novo review
of the submitted habeas evidence (as shown above) for adverse affect.

It is

evident, even to a layperson, that the State habeas court held all of the
submitted evidence by petitioner as not credible, is judicial bias to protect
trial counsel.
Affidavits of eye witnesses to the events is credible and necessary for
the defense.

A receipt from JON EVANS'S office for $7,500.00 for legal services

is credible to demonstrate adverse affect.

A Court Order is credible to prove

trial counsel is receiving money from petitioner's family AFTER he is appointed
by the court with threats of prison if petitioner does not pay is equal to
extortion.

How can the District Court, and the Fifth Circuit, pass on such a

miscarriage of justice.

Documentary evidence of Manley's real injuries to

prove petitioner is innocent is credible evidence that corroborates witness
accounts.

Adverse affect is proven with credible evidence.

14.

REASONS FOR GRANTING THE WRIT
I. WHETHER THE PROPHYLAXIS OF CUYLER SHOULD BE
EXTENDED TO DEFINE THE TERM "ADVERSE AFFECT" TO
ESTABLISH A DEMONSTRATION TEST INVOLVING ACTUAL
CONFLICTS BETWEEN AN ATTORNEY'S PERSONAL
INTEREST AND HIS CLIENT'S INTEREST
The Sixth Amendment guarantees the right to effective assistance of
counsel in criminal prosecutions.

Padilla v. Ky., 559 U.S. 356, 364 (2010)

(6th Amendment right to counsel is right to effective counsel); McMann v.
Richardson, 397 U.S. 759, 771 n.14 (1970)(same).
Under the prophylaxis of Cuyler v. Sullivan, 446 U.S. 355, 100 S. Ct.
1708 (1980), when an attorney's representation of multiple defendants, though
not objected to at trial, results in an actual conflict of interest that
adversely affects the attorney's performance, the defendant's Sixth Amendment
rights have been violated, even without a showing that the conflict caused the
defendant to lose his or her case (emphasis added throughout) Id. at 349-350
("Thus, a defendant who shows that a conflict of interest actually affected
the adequacy of his representation need not demonstrate prejudice in order to
obtain relief.").
In Justice Marshall's separate opinion in Cuyler, written to challenge
the adverse affect prong of the test, endeavors to define "conflict of
interests." Id. at 355 n.3 (Marshall, J., concurring in part and dissenting
in part).

In each of the ethics codes to which he refers, Justice Marchall

cites only the canon or rule dealing with multiple client representation.
seems, the Supreme Court refused to expand Cuyler, or its progeny, to cases
like petitioner's, beyond the ethical problems of multiple representation.

15.

It

In none of the well recognized Supreme Court cases:

Wood v. Georgia, 450

U.S. 261, 101 S. Ct. 1097 (1981); Nix v. Whiteside, 485 U.S. 157, 106 S. Ct.
988 (1986); Burger v. Kemp, 483 U.S. 776, 107 S. Ct. 3114 (1987); Holloway v.
Arkansas, 435 U.S. 475, 98 S. Ct. 1173 (1978); or Mickens v. Taylor, 535 U.S.
162, 122 S. Ct. 1237 (2002), is the term "adverse affect" defined, nor does
the Supreme Court provide a "demonstration test" in order to obtain relief.
The Cuyler adverse affect prong has never been extended to cases involving
single client representation ethical issues like petitioner's,

The majority

only gets part way by stating:
"Thus, a defendant who shows that a conflict of interest
actually affected the adequacy of his representation
need not demonstrate prejudice in order to obtain relief."
Cuyler, 466 U.S. at 349-50.

The Supreme Court never defines "adverse affect"

only defining "adequacy of representation" to mean the conflict caused the
attorney's choice, not that the choice was prejudicial in any other way." See
Thomas v. Foltz, 818 F.2d 476, 481-82 (6th Cir. 1987).

In Mickens, the Supreme

Court modified the "effect on representation" test by putting both the cause
and effect elements in the phrase "actual conflict":
"The Sullivan standard is not properly read as requiring
inquiry into actual conflict as something separate and
apart from adverse affect. An "actual conflict," for
Sixth Amendment purposes, is a conflict of-interest that
adversely affects counsel's performance."
See Mickens, 535 U.S. at 172 n.5.

The Supreme Court never defines the term

"adverse effect" and never extends the prophylaxis of Cuyler beyond multiple
representation cases,

Assuming arguendo, that Cuyler can be applied to cases

like petitioner's, as the State and Federal habeas proceedings did do, no
definition exists on how a defendant must demonstrate the adverse affect in
16.

order to obtqin relief.

The Circuit Courts are left to interpret and apply

Cuyler to their whim of judicial opinion, without the Supreme Court defining
how demonstration must take place.

In petitioner's case, the State habeas

Court, who is not the trial Court, labels all of petitioner's affidavits and
evidence as not credible.

How then can a defendant "demonstrate" the adverse

affect of his counsel's interests over the interest of the client? The Court
in petitioner's case, cut-off petitioner's limbs with no guiding principals of
law.

Meanwhile, an innocent person languishes in prison for decades, because

the Federal Court system under .28 U.S.C. §2254, will not consider' petitioner's
evidence, even under the miscarriage of justice exception.
The Sixth Circuit recognized in Thomas, the reasonableness of counsel's
choice can be relevant as a factor.in proving the choice was caused by the
conflict.

Causation can be proved circumstantially, through evidence that the

lawyer did something detrimental or failed to do something adventageous to one
client that promoted a client's interests. Thomas, 818 F.2d at 483.

The

problem still exists with the circuit courts, because the Supreme Court has
never extended Cuyler beyond multiple representation cases.
The Habeas Process Violated The Confrontation Clause
In Crawford v. Washington, 541 U.S. 36, 124 S. Ct. 1354 (2004), the Court
recognized the right to confront ones accuser goes back to Roman times.
at 43.

Affidavits are recognized as "extrajudicial statements"

at 52.

The Crawford Court recognized formulations, like affidavits, "all

Id.

Id. 541 U.S.

share a common nucleus and then define the clause's coverage at various levels
of abstraction around it." Id.

Therefore, being exception to heresay.

true that the submitted affidavits were testimonial in nature, but to
"demonstrate" the knowledge each witness had to confront the allegations
17.

It is

against petitioner (emphasis added).

The Crawford Court explains that the

clause's ultimate goal is to "ensure reliability of evidence."
at 61.

Id. 541 U.S.

The reliability must be assessed in a particular manner:
"by testing in the crucible of cross-examination."

Crawford, 541 U.S. at 61.

When a Court denies extrajudicial affidavits without

testing its reliability, the Court denies the procedural guarantee of the
Sixth Amendment's Confrontation Clause, thus, violating petitioner's rights.
The witness affidavits were from witnesses whom were not in custody, or were
suspects, nor had a stake in the case making their testimony reliable.
Crawford, 541 U.S. at 63.

See

It is no wonder why the State habeas court used

no guiding principals of law to discredit all of petitioner's affidavits.
The Crawford Court considers a witness to be reliable, "... eye witness
with direct knowledge of the events." The attached affidavits represent such
a condition in which Crawford's majority refers.

For the State habeas court

in petitioner's case to deem eyewitness affidavits "not credible" without testing
their reliability, at least at an evidentiary hearing, is evidence of judicial
bias, and should be considered an unreasonable application of law to the facts
under 28 U.S.C. §2254(d)(l); as it violates Crawford's direction held by the
majority of the U.S. Supreme Court.
Equally important, the eye witnesses were at trial, in the courtroom
ready to testify, but due to counsel's ongoing interest of money, rather than,
his interest in his client's innocence, not a single defense witness is called.
This is why petitioner urges this Court now, to define "Adverse Affect" and
define a "demonstration" test to prevent court's from discounting evidence
in order to demonstrate adverse affect as required for relief.

18.

II. THE CIRCUIT COURTS DO NOT AGREE HOW TO APPLY
THE TERM "ADVERSE AFFECT" IN A CONSISTENT WAY IN
ORDER TO OBTAIN RELIEF
There is a difference of opinion among the Circuits about when foregoing
an available defense because of a conflict of interest constitutes evidence of

"adverse affect." Some Circuits hold that whenever counsel failed to pursue a
"plausible defense" that was inherently in conflict with or not undertaken due
to the attorney's other loyalties," (the case here) there is sufficient
evidence of adverse affect to show a Sixth Amendment violation.

Winkler v.

Keane, 7 F.3d 304, 309 (2d Cir. 1993); United States v. Gambino, 864 F.2d 1064,
1070 (3d Cir. 1988)(same); United States v. Fohey, 769 F.2d 829, 836 (1st Cir.
1985)(same).

Other Circuits also require that the foregoing defense be

"reasonable." Freund v. Butterworth, 165 F.3d 839, 860 (11th Cir. 1999)(en
banc)(showing adverse affect requires proof of tactic forgone, of reasonableness
of tactic on facts, and of a causal link between conflict and decision to
forego tactic); Mickens, 240 F.3d at 361 (same).
Jon Evans, trial counsel, demanded money from petitioner after he is courtappointed, violating every legal ethic in the books.

Then, when petitioner

cannot'meet his demands, Evans intentionally refuses to bring forth any defense
witnesses, documentary evidence, or expert medical personnel to testify in
regards to the Brady material; all of which, was needed to advance a plausible
alternative defense.
The Supreme Court never identifies, or explains in Cuyler what is deemed
as a "demonstration" of adverse affect.
the Circuits interpretation as:

19.

If the logic of adverse affect follows

"whenever counsel failed to pursue a "plausible defense"
that was inherently in conflict with or not undertaken
due to the attorney’s other loyalties," there is
sufficient evidence of adverse affect to show a Sixth
Amendment violation. l.'fl (emphasis added)
Winkler, supra; Beets v. Collins, 65 F.3d 1258 (5th Cir. 1995)(en banc) quoting
Winkler 65 F.3d at 1284, to address a single conflict between the lawyer’s
self-interest, and his client's interest; Gambino, supra; Butterworth, supra,
the Supreme Court should now bring forth the proper test for "demonstration"
of adverse affect, where cases like petitioner's, may obtain relief without
affects of judicial bias that petitioner's case has unduly suffered.
How can a legal fee receipt, eye witness accounts of the events, expert
testimony of Brady material that corroborates witness testimony, all be named
"not credible," and still be a legal process? The Crawford Court recognizes
the absolute right to confrontation since Roman times.

A definition by the

Supreme Court now, would eliminate innocent people from becoming imprisoned
when a lawyer decides money is more important than innocence!
Equally important, the Supreme Court should synthesize the Circuit Courts
by extending the "Adverse Affect" prong in Cuyler to cases like petitioner's.
People of the Republic of the United States have a vested interest in the
Constitution, and a vested interest in true justice being brought forth.

20.

CONCLUSION
Since the inception of Cuyler, the Supreme Court has never addressed the
proposed question as presented by petitioner.

People of a civilized society

have a vested interest in justice by the people, and for the people, not to
be made a mockery thereof, by an attorney who comes to court to represent
his own interest of money.
The U.S. Supreme Court has a duty to the people to ensure that judicial
processes are reliable as the majority has recognized in other cases to be
a violation of constitutional right when the fundamental judicial process
becomes unreliable.

Petitioner's case is an excellent example of why the

question should be resolved today.

To extend Cuyler involving single client

representation cases, provides a service to the people of the United States.
If attorney's want to use the justice system as their pet playground to rake
in vasts amount of money, even if it means extortion, then the Supreme Court
must take a stand to rectify the harm.

Petitioner's trial counsel, even after

being court-appointed, extorted $7,500.00 from petitioner's family: Pay me,
or else.

Making a demand for something under a threat, is extortion, and

trial counsel Jon Evans, should have been disbared.
By the Court granting Certiorari today, the American Bar Association
could be asked to submit a brief on this issue, which would guide the Court
into a proper decision, that extending Cuyler to cases like petitioner's
serves in the interest of the people.

Innocent people, such as petitioner,

are being placed in prisons all over America without*:.adequate due process.
Petitioner is then placed in the judicial system, as a one-armed gladiator
against a corrupt political system, who is sacrified at the judicial alter.

21.

What does the term "demonstrate" mean, what must happen to demonstrate
adverse affet, how should a court weight submitted evidence, should a court
be allowed to wipe away submitted evidence as "not-credible" even though it
violated the dictates of Crawford's Confrontation Clause requirements?

None

of these questions can be answered, because the U.S. Supreme Court, has never
addressed the issue.
If the Circuit Courts' are correct in their interpretation of Adverse
Affect, then petitioner has overwhelmingly provided enough evidence to show,
or demonstrate, adverse affect.

The habeas process at any level, has never

made trial counsel answer to his so-called strategy to forego witnesses, or
Brady evidence, or expert testimony in regards to the Brady evidence.

A simple

evidentiary hearing, that petitioner requested, would have revealed that
trial counsel lied on his affidavit to the Court, and that foregoing such
evidence was not "reasonable" as one Circuit Court puts it.
could also be addressed:

The conflict

Why did you accept $7,500.00 after being appointed

by the Court? The habeas process failed to make Jon Evans answer this simple
question.* This is why it is paramount, that the U.S. Supreme Court now answer
petitioner's question.
The Fifth Circuit had a responsibility to address petitioner's case
in a De Novo review, and examine all evidence that petitioner submitted, and
the trial transcripts.

Even on the record, as petitioner pointed out in his

Petition.For Rehearing En Banc page 3, how trial counsel intentionally foregoes
credible Brady evidence in pursuit of his own interests.

What reasonable

attorney would forego evidence that could prove innocence? The Fifth Circuit
could have remanded for an evidentiary hearing, because petitioner's claims
were supported by the record.

22.

I'f petitioner's submitted affidavits are now given proper review, a
review not given by the Federal District Court, or the Fifth Circuit, what
is highly obervable, is how trial counsel passes on witnesses due to the
conflict of interest.

Petitioner's witnesses could have placed reasonable

doubt before the jury, as Manley and Kucharska perjured themselves in court.
Had witnesses been heard properly, the documentary evidence by medical staff
in regards to the Brady evidence, the jury would have heard the true story.
A probability exists that the outcome would have been different.

Yet, the

affidavit evidence has never been .given proper review.
In conclusion, petitioner urges the U.S. Supreme Court to address the
question petitioner presents today.

An extension of Cuyler to cases like

petitioner's is in the public interest to ensure a reliable judicial process.
Petitioner is innocent, has been in prison over eight (8) years for a crime
in which he did not commit.

Defining Adverse affect, and how it must be so

demonstrated, is a critical question the majority should resolve.
WHEREFORE, petitioner prays that this Court GRANTS Certiorari to now
address the question petitioner submits in the interest of justice.

Respectfully submitted
/

y

a

Graham Sonnahberg #1950692
Jester 3 Unit
3 Jester Road
Richmond, Texas 77406-8544

23.

